No.
IN THE
SURPREME COURT OF THE UNITED STATES
October Term 2020
JUSTIN STROLIS
Petitioner,

Vv.
LUCAS HEISE
individually, for actions taken under color of law
as a deputy with the Augusta Richmond County Sheriff's Department,
Respondent.

CERTIFICATE OF SERVICE
This is to certify that John P. Batson, the undersigned Member of the Bar of
the Supreme Court, did this date cause of copy of the following: Petition for Writ of
Certiorari and Appendix, the Certificate of Service and Certificate of Word and Font
Compliance to be served upon Respondent and interested counsel by:
&] E-mailing a copy of the same to the email addresses listed below on the
date of electronic filing, November June 21st, 2021.

Tameka Haynes thaynes@frailswilsonlaw.com
Randolph Frails _randyfrails@frailswilsonlaw.com

Dx] By delivering a paper copy of the same to a third-party commercial
carrier, for delivery within at least three calendar days, addressed to:

Frails & Wilson LLC

Randolph Frails (706) 855-6715
Tameka Haynes

211 Pleasant Home Rd.,

Suite A-1

Augusta, Georgia 30907

I further certify, pursuant to Rule 29.5, that all parties required to be served
have been served. This 21st day of June, 2021.

gee Palme
JOHN P, BATSON

1104 Milledge Road

Augusta, GA 30904
706-737-4040
ipbatson@aol.com

Attorney for Petitioner Strolis
Counsel of Record

 
